September 2009
Report No. AUD-09-027


Material Loss Review of Heritage
Community Bank, Glenwood, Illinois




            AUDIT REPORT
                                           Report No. AUD-09-027                                      September 2009


                                           Material Loss Review of Heritage
                                           Community Bank, Glenwood, Illinois
   Federal Deposit Insurance Corporation
                                           Audit Results
Why We Did The Audit
                                           CAUSES OF FAILURE AND MATERIAL LOSS
On February 27, 2009, the Illinois
Department of Financial                    Heritage failed because its Board of Directors (BOD) and management
Professional Regulation (IDFPR),           did not adequately manage the risks associated with its CRE/ADC
Division of Banking, closed                concentrations. Strong risk management practices and appropriate
Heritage Community Bank,                   levels of capital are essential elements of a sound CRE lending
Glenwood, Illinois (Heritage) and          program, particularly when an institution has a concentration in CRE
named the FDIC as receiver. On             loans. In the case of Heritage, weaknesses associated with Heritage’s
March 20, 2009, the FDIC notified          loan underwriting and credit administration practices contributed to the
the Office of Inspector General            significant and rapid deterioration of its asset quality, which in turn led
(OIG) that Heritage’s total assets at      to reduced capital as a result of loan losses when the economy started
closing were $228.1 million, with a        to cycle downward. Heritage was ultimately closed by the IDFPR due
material loss to the Deposit               to an inability to raise capital to offset high loan loss provisions. Also
Insurance Fund (DIF) estimated at          contributing to the losses was an incentive compensation plan that
$41.6 million. As required by              rewarded loan volume and under which one bank official generated the
section 38(k) of the Federal Deposit       vast majority of poor quality loans.
Insurance Act, the OIG conducted a
material loss review of the failure of     OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION
Heritage.
                                           The FDIC identified and reported on management weaknesses
The audit objectives were to               associated with Heritage’s CRE concentrations in 2003, and made
(1) determine the causes of the            recommendations for improvements to address those weaknesses.
financial institution’s failure and        Examinations conducted between 2004 and 2006 identified some
resulting material loss to the DIF         weaknesses associated with Heritage’s CRE concentrations but
and (2) evaluate the FDIC’s                generally concluded that Heritage’s overall financial condition was
supervision of the institution,            sound and management was appropriately managing additional risks
including implementation of the            associated with CRE concentrations. The FDIC was not required to,
Prompt Corrective Action (PCA)             and did not perform, an onsite examination in 2007 because the bank
provisions of section 38.                  met the 18-month examination cycle criteria under the Federal Deposit
                                           Insurance Act and FDIC Rules and Regulations. Between the 2006 and
                                           2008 examinations, the FDIC relied on various offsite techniques to
Background                                 monitor Heritage. In 2008, examiners became increasingly critical of
                                           Heritage’s risk management practices with respect to CRE
Heritage was insured on November
                                           concentrations. The 2008 examination was followed-up with a Cease
28, 1969 and was headquartered in
                                           and Desist Order in October 2008 and two visitations in September and
Glenwood, Illinois. At closing, the
                                           December 2008.
bank had three full-service branch
offices and one loan servicing
                                           The FDIC may have benefited by changing its supervisory strategy
center, all located in the Chicago,
                                           between the 2006 and 2008 examinations, taking into consideration the
Illinois, metropolitan area. The
                                           following factors:
bank was fully owned by Heritage
Community Bancorporation, Inc., a
                                           •   CRE concentrations were significant,
bank holding company, but did not
                                           •   Management and the BOD had limited experience managing CRE
have any affiliates or subsidiaries.
                                               concentrations, and
                                           •   CRE concentrations were known to be vulnerable to economic
                                               cycles.
Background (cont.)                        Audit Results (cont.)

Heritage’s loan portfolio was             In hindsight, the FDIC’s reliance on offsite monitoring between the
concentrated in the origination of 1-     2006 and 2008 examinations proved to be an ineffective supervisory
4 family residential real estate loans,   strategy. Offsite monitoring performed in that period failed to alert
nonresidential real estate, and           the FDIC to Heritage’s deteriorating condition until shortly before the
commercial real estate (CRE) –            2008 onsite examination was to take place. Closer supervisory review
construction and development loans        during that timeframe might have resulted in earlier identification of
(ADC).                                    existing weaknesses and enabled the FDIC to more effectively
                                          mitigate losses.

                                          With respect to PCA, the FDIC issued a notification letter to Heritage
                                          alerting the bank of applicable provisions under PCA when it fell
                                          below the Well Capitalized category, as required. Heritage submitted
                                          a capital restoration plan on September 18, 2008, which was updated
                                          on December 31, 2008. The plan proposed pursuing an equity
                                          investment from strategic investors to raise approximately $20 million
                                          in order to meet the capital requirements under the Cease and Desist
                                          Order. However, the bank was unsuccessful in raising the additional
                                          capital. On February 19, 2009, the FDIC notified Heritage that based
                                          on capital calculations provided by the institution, Heritage was
                                          considered to be critically undercapitalized for PCA purposes.
                                          Heritage failed shortly after the notification.

                                          Management Response
                                          On September 16, 2009, the Director, Division of Supervision and
                                          Consumer Protection (DSC), provided a written response to the draft
                                          report. DSC reiterated the OIG’s conclusions regarding the cause of
                                          Heritage’s failure. With regard to our assessment of the FDIC’s
                                          supervision of Heritage, DSC’s response stated that it uses various
                                          tools to monitor institutions between examinations and the offsite
                                          monitoring process was integral to the supervisory process in this
                                          case. DSC stated that one of its offsite models accurately predicted
                                          Heritage’s future downgrade during the first quarter of 2008. Further
                                          DSC stated that information discovered through offsite monitoring
                                          merited a Prompt Corrective Action Plan in December 2008 and
                                          notification to Heritage that it was critically undercapitalized in
                                          February 2009. We agree that offsite monitoring is an integral part of
                                          the supervisory process, and did occur in the case of Heritage.
                                          However, as we discuss in the report, in hindsight, offsite monitoring
                                          between 2006 and 2008 did not prompt closer on-site supervisory
                                          review that may have provided more timely insight into Heritage’s
                                          condition and enabled the FDIC to more effectively mitigate losses.




To view the full report, go to
www.fdicig.gov/2009reports.asp
Contents                                        Page


BACKGROUND                                        2

CAUSES OF FAILURE AND MATERIAL LOSS               2
 Significant CRE/ADC Loan Concentration           3
 Weak Loan Underwriting Practices                 3
   Excessive Real Estate Loan-to-Value Limits     3
   Weak Controls over Interest Reserves           4
   Incomplete Financial Analysis                  4
Weak Credit Administration Practices              4
   Weak Internal Loan Rating System               4
   Inadequate External Loan Review                5
   Watch and Impaired Loan List                   5
Performance Incentive Compensation Plan           5

OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION       6
 Overview of Supervision                          6
 Assessment of FDIC Supervision                   8
   Management and Board Oversight                 8
   Risk Rating System (Internal and External)     9
   Watch List                                    11
   Performance Incentives                        12
   Dual Role of the President                    12
   Interest Reserves                             12
   Weaknesses in Offsite Monitoring              13

IMPLEMENTATION OF PCA                            15

CORPORATION COMMENTS                             16


APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY          17
  2. GLOSSARY OF TERMS                           19
  3. CORPORATION COMMENTS                        20
  4. ACRONYMS IN THE REPORT                      21
Contents                                                               Page



TABLES
Table 1: Financial Condition of Heritage                                 2
Table 2: Key Examination Information                                     6
Table 3: Heritage’s ADC Concentrations                                   9
Table 4: Heritage Loan Classifications and ALLL                         11
Table 5: Interest Reserves Paid and Replenished on Substandard Loans    12


FIGURES
Figure 1: CRE Concentrations to Total Capital Relative to Peer Group     3
Figure 2: ADC Concentrations as a Percentage of Total Loans              7
Figure 3: Heritage’s Non-Current Loan Percentages                       14
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General



DATE:                                     September 18, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Heritage Community Bank,
                                          Glenwood, Illinois (Report No. AUD-09-027)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss 1 review of the failure of Heritage
Community Bank (Heritage). On February 27, 2009, the Illinois Department of Financial
Professional Regulation (IDFPR), Division of Banking, closed the institution and named
the FDIC as receiver. On March 20, 2009, the FDIC notified the OIG that Heritage’s
total assets at closing were $228.1 million with an estimated loss to the Deposit Insurance
Fund (DIF) of $41.6 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision 2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology; Appendix 2
contains a glossary of terms; and Appendix 4 contains a list of acronyms used in the
report.

1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of Heritage’s failure and the FDIC’s efforts
    to ensure Heritage’s management operated the bank in a safe and sound manner. We are
    not making recommendations. Instead, as major causes, trends, and common
    characteristics of financial institution failures are identified in our reviews, we will
    communicate those to management for its consideration. As resources allow, we may
    also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
    program and make recommendations, as warranted.


BACKGROUND

    Heritage, insured by the FDIC on November 28, 1969, was a state nonmember bank
    headquartered in Glenwood, Illinois. In addition to its main office, Heritage had three
    full-service branch offices and one loan servicing center, all located in the Chicago,
    Illinois, metropolitan area. Heritage had minor out-of-territory lending in Bradenton,
    Florida, which represented 2 percent of the total loan portfolio. Heritage was owned by a
    single-bank holding company, Heritage Community Bancorporation, Inc. 3 Heritage
    provided traditional banking services and specialized in the origination of 1-4 family
    residential real estate loans, nonresidential real estate, and commercial real estate (CRE)
    consisting principally of construction and development loans (ADC). Table 1 details
    Heritage’s financial condition for the years 2004 through 2008.
      Table 1: Financial Condition of Heritage
    Uniform Bank Performance Report            Dec-08             Dec-07        Dec-06         Dec-05        Dec-04
    Total Assets ($000s)                        $235,154          $298,418      $314,405       $286,427      $260,912
    Total Deposits ($000)                       $225,735          $268,379      $283,091       $255,656      $232,591
    Total Loans ($000s)                         $176,012          $227,868      $250,590       $233,654      $207,284
    Net Income (Loss)                          ($21,182)            $4,622        $9,224         $7,687        $4,666
    Source: Uniform Bank Performance Report (UBPR).


CAUSES OF FAILURE AND MATERIAL LOSS

    Heritage failed because its Board of Directors (BOD) and management did not
    adequately manage the risks associated with its CRE/ADC concentrations. 4 Strong risk
    management practices and appropriate levels of capital are essential elements of a sound
    CRE lending program, particularly when an institution has a concentration in CRE loans.
    In the case of Heritage, weaknesses associated with Heritage’s loan underwriting and
    credit administration practices contributed to the significant and rapid deterioration of its
    asset quality, which in turn led to reduced capital as a result of loan losses when the
    economy started to cycle downward. Heritage was ultimately closed by the IDFPR due
    3
      Examination reports indicated that the holding company was primarily established for tax purposes, and
    that it was not a major source of financial strength for Heritage. The holding company had a simple
    structure with the holding company having no other subsidiary banks.
    4
      As stated in the FDIC’s Financial Institution Letter (FIL) FIL-110-98, dated October 8, 1998, “ADC
    lending is a highly specialized field with inherent risks that must be managed and controlled to ensure that
    this activity remains profitable.”
                                                            2
      to an inability to raise capital to offset high loan loss provisions. Also contributing to the
      losses was an incentive compensation plan that rewarded loan volume and under which
      one bank officer generated the vast majority of poor quality loans.

Significant CRE/ADC Loan Concentration

      In 2000, Heritage’s BOD hired a new loan officer to grow its loan portfolio by
      aggressively soliciting construction loans due to favorable yields and the short-term
      nature of the credits. In December 2003, Heritage’s concentration in 1-4 family
      residential real estate represented 45 percent of its loan portfolio, while the CRE loans
      represented 19 percent for the same period. However, by December 2008, CRE loans
      represented 52 percent of Heritage’s loan portfolio, while the 1-4 family residential real
      estate represented 28 percent for the same period. Heritage funded its steady growth
      through core deposits with its primary deposit products being demand deposits, savings,
      money market, and term certificate accounts. Figure 1 illustrates Heritage’s CRE
      concentrations relative to total capital in comparison to its peers. The spike in the
      percentage in 2008 can be partially attributed to the large number of nonperforming loans
      that increased Allowance for Loan and Lease Losses (ALLL) provisions, which in turn
      reduced capital.

             Figure 1: CRE Concentrations to Total Capital Relative to Peer Group
                                Annual Construction & Development Loans to Total Capital Relative
                                                        to Peer Group
                               1400.00%
                               1200.00%
                 Percentages




                               1000.00%
                               800.00%
                               600.00%
                               400.00%
                               200.00%
                                 0.00%
                                          2003
                                            1       2004
                                                      2      2005
                                                               3      2006
                                                                        4       2007
                                                                                 5       2008
                                                                                           6
                                                       Year Ending December 31

                                                     Peer Group          Heritage Bank
             Source: OIG Analysis of UBPRs for Heritage.

Weak Loan Underwriting Practices

      Several key loan underwriting practices were weak at Heritage and contributed to the
      deterioration of asset quality.

      Excessive Real Estate Loan-to-Value (LTV) Limits. Heritage made loans that
      exceeded the regulatory real estate LTV limits. Part 365, Appendix A, of the FDIC Rules
                                                                  3
      and Regulations (Interagency Guidelines for Real Estate Lending Policies) provides, in
      part, that the aggregate amount of all loans in excess of the supervisory LTV limits
      should not exceed 100 percent of total capital. Heritage’s aggregate balance of high LTV
      loans increased from $22,483,000 (or 89 percent of total capital) in 2005 to $69,710,000
      (or 223 percent of total capital) in 2008. Additionally, the excessive level of loans made
      with LTV exceptions exacerbated Heritage’s unsteady financial condition when these
      types of credits became troubled.

      Weak Controls over Interest Reserves. Heritage did not appropriately use and track
      interest reserves for its loans, and the bank’s loan policy did not address the use of
      interest reserves. This issue was identified in the March 2008 FDIC examination, which
      reported that Heritage was replenishing depleted interest reserves to accommodate delays
      in construction projects and slower than expected sales due to the weak real estate
      market. Examiners explained that it was a common practice at Heritage to replenish
      depleted interest reserves through additional advances, thereby increasing the loan
      amount, and corresponding LTV ratio, without any steps taken to maintain borrower
      equity levels. As stated in FIL-22-2008, Managing Commercial Real Estate
      Concentrations in a Challenging Environment, issued March 17, 2008, inappropriately
      adding extra interest reserves on loans where the underlying real estate project is not
      performing as expected can erode collateral protection and mask loans that would
      otherwise be reported as delinquent.

      Incomplete Financial Analysis. Heritage was not completing global financial analyses 5
      for large borrowing relationships. FIL-22-2008 provides key risk management processes
      for institutions with CRE concentrations, one of which is to maintain updated financial
      and analytical information for borrowers and states that global financial analysis of
      obligors should be emphasized. Examiners first observed during the September 2005
      examination that global repayment analysis was not being prepared for all customers at
      Heritage. The March 2008 FDIC examination report noted that the problem remained.
      Examiners informed Heritage of the importance of the financial analysis, especially when
      loans were renewed or extended while the bank relied on the financial strength of the
      borrower and/or guarantor for support. Examiners recommended that liquidity and
      excess cash flow should be documented to show the borrower’s financial capacity to
      support the loan and the analysis of cash flows should be done for multiple years.

Weak Credit Administration Practices

      Also contributing to the deterioration of asset quality were weaknesses in Heritage’s
      overall credit administration process, including the following aspects of its loan review
      system:

      Weak Internal Loan Rating System. As discussed later in the report, examiners
      determined that Heritage’s loan rating system was not an effective tool to reflect the true
      condition of the loans in the portfolio. According to FIL-105-2006, Interagency Policy

      5
          Global financial analysis involves analyzing a borrower’s complete financial obligations.
                                                              4
      Statement on the Allowance for Loan and Lease Losses (ALLL), issued December 13,
      2006, the foundation for any loan review system is accurate and timely loan classification
      or credit grading, which involves an assessment of credit quality and leads to the
      identification of problem loans. 6 An effective loan classification or credit grading system
      provides important information on the collectability of the portfolio for use in the
      determination of an appropriate level for the ALLL.

      Inadequate External Loan Review. A system of ongoing or periodic external loan-
      portfolio reviews can be used to provide useful continual feedback on the effectiveness of
      the lending process in order to identify any emerging problems. FIL-105-2006 states that
      the nature of loan review systems may vary based on an institution’s size, complexity,
      loan types and management practices. In 2006, IDFPR examiners suggested that internal
      and external loan reviews should be enhanced in line with the increased sophistication
      and complexity of the loan portfolio. At that time, Heritage’s loan review program
      primarily focused on documentation reviews and exception tracking, rather than
      validation of internal risk ratings and reviews of credit relationships as a whole. The
      examiners further suggested that any recommendations from the loan reviews should be
      timely and focused to mitigate future underwriting inconsistencies and loan
      administration deficiencies. Heritage did not address this issue, as evidenced by similar
      concerns raised by examiners in 2008 related to the external review process.

      Watch and Impaired Loan List. Heritage implemented a watch and impaired loan list
      as a result of examiners’ recommendations in 2003. However, FDIC examiners noted
      during the March 2008 examination that the increased volume of problem loans
      highlighted the need for more comprehensive reporting of problem loans. The watch and
      impaired loan list is an important part of a loan review system because it identifies and
      groups loans that warrant the special attention of management or that management should
      more closely monitor. The March 2008 examination recommended that specific factors
      that caused the weakening of the loans should be summarized on the watch and impaired
      loan list. Additionally, examiners recommended that action plans for the loans should be
      detailed along with identification of the date the loan was placed on the list.

Performance Incentive Compensation Plan

      To carry out its strategic decision to grow its CRE/ADC lending, Heritage implemented
      an incentive compensation plan that awarded incentive payments based upon loan
      volume generated by each loan officer and the spread realized between the particular loan
      and its funding source. Incentives were only payable if the bank’s return on asset percent
      was above 1.4 percent, and the award amount was to be adjusted for net loan losses as a
      percentage of average loans. A particular concern was that bonuses were paid semi-
      annually, and in most cases, prior to the loan maturing. Examiners noted that this

      6
        The ROEs used the term “loan rating system” while the policy uses the term “credit grading” to discuss
      the same system that reflects the risk of default and credit losses and for which a written description is
      maintained, including a discussion of the factors used to assign appropriate classifications or credit grades
      to loans.
                                                             5
      practice could create a situation in which a loan officer originates a sufficient volume of
      poor quality loans, collects his incentive bonus, and then leaves the bank before the losses
      are incurred. Heritage’s Chairman reiterated to examiners that Heritage’s Loan
      Committee was closely reviewing and approving all new loans over $500,000. A
      November 12, 2008 joint release statement by federal regulatory agencies states:

              …poorly designed management compensation policies can create perverse
              incentives that can ultimately jeopardize the health of the banking
              organization…management compensation policies should be aligned with the
              long-term prudential interests of the institution, should provide appropriate
              incentives for safe and sound behavior, and should structure compensation to
              prevent short-term payments for transactions with long-term horizons.

      As discussed later in the report, one individual who was covered by the incentive
      compensation plan originated the vast majority of loans – approximately $53 million --
      that were ultimately adversely classified.


OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION

      Our review focused on supervisory oversight from 2003 through Heritage’s failure in
      2009. In that period, the FDIC and IDFPR performed on-site examinations and
      conducted offsite monitoring of Heritage as required by statute or agency practice. Two
      visitations were also conducted in 2008. Although examiners identified and reported
      Heritage’s CRE concentrations, significant weaknesses associated with the management
      of the CRE portfolio were not identified by examiners until the 2008 examination when
      the effects of increasing concentrations and the weakening economy began impacting the
      portfolio.

Overview of Supervision

      The FDIC DSC’s Chicago Field Office performed examinations in 2003, 2005, and 2008,
      and the IDFPR performed examinations in 2004 and 2006. From 2003-2006, Heritage
      consistently received a composite 2 CAMELS rating, and neither the FDIC nor IDFPR
      reported significant regulatory concerns or imposed enforcement actions until 2008 when
      both the composite and four of six component ratings were downgraded to a 5. The
      FDIC was not required to perform an onsite examination in 2007 because the bank met
      the 18-month examination cycle criteria under Sections 10(d) of the FDI Act and 337.12
      of FDIC Rules and Regulations. Table 2 summarizes key examination information.
      Table 2: Key Examination Information
                                              03/31/2008   08/28/2006   09/19/2005   07/19/2004   01/06/2003
            Examination Information              FDIC        IDFPR         FDIC        IDFPR         FDIC
          Component/Composite Ratings          5/555544     2/122121     2/122121     2/222111     2/222111
      Source: ViSION Bank Profile, UBPRs, and ROEs.


                                                     6
Between the 2006 and 2008 examinations, the FDIC relied on various offsite techniques
to monitor Heritage. The results of the offsite monitoring did not prompt additional
supervisory review of Heritage. As indicated in Figure 2, ADC concentrations as a
percentage of total loans increased during this same time frame as market conditions in
the construction and development sector were also beginning to decline.

        Figure 2: ADC Concentrations as a Percentage of Total Loans

                                 Construction and Development Loan Percentage

                        60.00%
                                                  57.59%   57.69   58%    57.82%
                        58.00%
                        56.00%
          Percentages




                                                                                   55.69%
                        54.00%
                                        51.55%
                        52.00%
                                  50.09%
                        50.00%
                        48.00%
                        46.00%
                                   9/06
                                     1    12/06
                                            2       3/07
                                                     3      6/07
                                                             4     9/0
                                                                     57     67
                                                                          12/0      3/08
                                                                                     7

                                 Dates Quarterly From September 2006 through March 2008
        Source: Quarterly UBPRs from September 2006 through March 2008.

In 2008, examiners found that the overall condition of the bank had deteriorated
significantly since the 2006 examination. According to examiners, the severity and depth
of asset quality issues required the immediate attention of Heritage’s BOD and
management. Examiners stated that a failure to gain immediate control over problem
assets would negatively impact the future of the bank. Moreover, the examiners said that
the financial decline in Heritage between year-end 2007 and June 2008 made it unclear
whether Heritage’s management had the wherewithal to turn the institution around. In an
effort to deal with the asset quality deterioration, the bank hired a new Senior Vice
President (SVP) in 2008 to serve as Chief Credit Officer and manager of problem assets.
The examiners noted that the new SVP was taking necessary actions to work out of
problem loan situations; however, considerable work remained.

In August 2008, the FDIC issued a Problem Bank Memorandum. The memorandum
stated that asset quality was unacceptable and that as a result of the bank’s two external
loan reviews, substandard loans increased to $75 million or 528 percent of Tier 1 capital.
The memorandum also characterized the concentrations in CRE as excessive and
imprudent at 586 percent of Tier 1 Capital. Management was also criticized for not
developing an effective framework for monitoring and controlling the concentration risk
or developing any mitigation strategies. In August 2008, the FDIC was notified that the
President had left Heritage Bank. To follow up on issues related to the 2008
examination, the FDIC conducted a visitation in September 2008. The purpose of the
                                                       7
      FDIC visitation was to determine whether the provision to the ALLL made as of June 30,
      2008 was adequate.

      The FDIC and IDFPR jointly issued a Cease and Desist Order (C&D) in October 2008
      stipulating certain capital requirements. The C&D capital requirements are discussed in
      greater detail later in the PCA section of the report. Although Heritage made progress
      toward complying with the C&D provisions, Heritage never met the minimum capital
      requirement. The FDIC and IDFPR conducted a joint visitation in mid-December 2008
      to assess capital, review the ALLL analysis, and review the bank’s problem loan list and
      loan impairment calculations. There were no ratings issued for Heritage during the two
      visitations. By December 31, 2008, Heritage experienced a $21 million loss, and the
      bank subsequently failed in February 2009.

Assessment of FDIC Supervision

      The FDIC identified and reported on management weaknesses associated with Heritage’s
      CRE concentrations in 2003, and made recommendations for improvements to address
      those weaknesses. Examinations conducted between 2004 and 2006 identified some
      weaknesses associated with Heritage’s CRE concentrations but generally concluded that
      Heritage’s overall financial condition was sound and management was appropriately
      managing additional risks associated with CRE concentrations. In 2008, examiners
      became increasingly critical of Heritage’s risk management practices in this area.

      The FDIC may have benefited by changing its supervisory strategy between the 2006 and
      2008 examinations taking into consideration the following factors:

      •   CRE concentrations were significant,
      •   Management and the BOD had limited experience managing CRE concentrations,
          and
      •   CRE concentrations were known to be vulnerable to economic cycles.

      In hindsight, the FDIC’s reliance on offsite monitoring between the 2006 and 2008
      examinations proved to be an ineffective supervisory strategy. Offsite monitoring
      performed in that period failed to alert the FDIC to Heritage’s deteriorating condition
      until shortly before the 2008 onsite examination was to take place. Closer supervisory
      review during that timeframe might have resulted in earlier identification of existing
      weaknesses and enabled the FDIC to more effectively mitigate losses.

      Management and Board Oversight. The FDIC’s 2003 examination noted that the
      Board had not established limits for the maximum allowable amount of construction
      loans and that the Board had not established a watch list. The 2004 IDFPR ROE noted
      that to address issues identified in the 2003 examination, the BOD had amended the loan
      policy to include a concentration of credit report with appropriate guidelines and
      established a maximum limit of 400 percent of risk-based capital for CRE loans. Specific
      lending criteria and monitoring programs were adopted and included LTV ratios, internal
      risk ratings, an identification of term changes since the last update, and a listing of all
                                                  8
 construction and land development loans. Heritage management tracked and presented
 this information to the BOD on a quarterly basis.

 The FDIC 2005 examination stated that the Board and senior management continued to
 provide sufficient oversight of Heritage, as evidenced by its strong financial condition.
 The IDFPR 2006 examination stated that BOD oversight was provided by a
 knowledgeable directorate, possessing immense experience. However, management
 continued to be very active in extensions of credit in the real estate construction and
 development areas and raised the limit for CRE lending to 600 percent of risk based
 capital. In that regard, table 3 presents the growth of the funded and total construction
 loans as a percentage of Tier 1 Capital from December 31, 2002 to December 31, 2007. 7

Table 3: Heritage’s ADC Concentrations
                                                   Funded ADC Loans        Total ADC Loans as
     Examination          ADC Concentration         as a Percentage of       a Percentage of
       Start Date        Information as of Date       Tier 1 Capital          Tier 1 Capital
 January 6, 2003        December 31, 2002                 126%                    199%
 July 19, 2004          April 30, 2004                    195%                    266%
 September 19, 2005     June 30, 2005                     343%                    500%
 August 28, 2006        July 31, 2006                     469%                    634%
 March 31, 2008         December 31, 2007                 461%                Not available
Source: DSC ROEs.

 In contrast, the FDIC 2008 examination placed full responsibility for Heritage’s financial
 condition on the Board and senior management. Examiners stated that the BOD and
 senior management failed to effectively develop risk management systems to monitor and
 control risk. The ROE stated that the deterioration in asset quality resulted from the
 failure to properly monitor credits after origination, identify developing risk exposures in
 a timely and comprehensive manner, and establish appropriate CRE limits.

 Risk Rating System (Internal and External). FDIC examiners first identified
 weaknesses in Heritage’s internal rating system in the January 2003 examination.
 Examiners found two large construction loan relationships with inaccurate ratings and
 suggested that Heritage’s management consider expanding the risk rating definitions to
 include risk aspects of construction lending that might signal weaknesses. Examiners
 suggested including aspects of construction lending such as borrower’s equity
 contributions to the project, borrowing history at the bank or familiarity of borrower to
 loan officer, cost overruns, out-of-balance conditions, material change in construction
 plans, LTV percentages, and financing commitments. The IDFPR’s 2004 examination
 cites that the internal loan rating system was consistently applied and considered
 adequate. The FDIC 2005 ROE was silent on the issue of Heritage’s internal rating
 system. The IDFPR 2006 ROE stated that internal and external reviews should be
 enhanced in line with the sophistication and complexity of the loan portfolio.


 7
  Total loans represent the funded and unfunded loan commitments. Unfunded loan commitments are
 contractual obligations for future funding.
                                                     9
In contrast, in the March 2008 examination report, FDIC examiners described Heritage’s
internal rating system as an obstruction to the oversight and risk mitigation process of the
loan portfolio. Examiners concluded that the system was inadequate for identifying,
monitoring, and controlling the risks within the loan portfolio. Examination review noted
a large number of credits where rating downgrades were not recognized despite the credit
being put on the impaired list. Specifically, the 2008 examination reported that 18, or 28
percent, of the adversely classified CRE/ADC loans were given inaccurate internal risk
ratings. According to examiners, each loan demonstrated a high-risk profile for an
extended period. Examiners commented that the high-risk profile should have alerted the
bank’s management to loan deterioration, and appropriate downgrades should have been
assigned. The examiners downgraded 17 out of 18 loans to a 6 rating, while Heritage
rated each between 3 and 5. 8

Moreover, in the March 2008 ROE, examiners noted that the most recent loan review in
February 2008 was exception-based and comments made in the loan review regarding
overall credit administration were general, primarily focused on missing or outdated
documentation and policy exceptions, and did not identify any issues noted by examiners.
Further, examiners noted that no recommendations were made by the independent loan
reviewers to downgrade loans that had high-risk indicators such as increased construction
cost and elevated LTV through interest reserve recapitalization.

The examiners recommended a comprehensive loan review and Heritage’s BOD
subsequently approved two independent loan reviews to be performed. The two
independent loan reviews were performed in April 2008 and June 2008. The April 2008
review was performed by Heritage’s external auditors who had performed external loan
reviews for Heritage quarterly during 2007. The 2007 quarterly loan reviews consistently
reported the overall loan quality as good. However, the April 2008 loan review report
stated that risk ratings for commercial loans mostly disagreed with the bank’s risk rating.
The report also recommended 30 downgrades due to weak borrower performance and
stated that the bank needed to improve its process of properly assessing risk in a given
transaction and assigning the proper risk grade as defined in the bank’s loan policy. In
addition, the report stated that the bank was not consistent in applying risk ratings across
the portfolio. According to the report, bank management acknowledged that it had not
been diligent in updating and applying proper risk ratings to the commercial portfolio.

Further, the June 2008 loan review, performed by an independent loan reviewer that
specialized in real estate loans, found the following:

•   The bank’s underwriting, documentation, and monitoring systems were not
    functioning properly to protect the bank from undue risk. In addition, the President’s
    portfolio appeared too large and was not receiving the proper level of attention.
8
  According to the bank’s loan rating system, a 6 rating (Substandard) is a loan inadequately protected by
the sound worth and paying capacity of the borrower or the collateral pledge. A 3 rating (Marginal Risk) is
a good quality business credit. A 4 rating (Management Attention) is an average business credit, and a 5
rating (Other Loans Especially Mentioned) is a below-average business credit containing potential
weaknesses.
                                                      10
 •    Initial and/or subsequent lending decisions were made with incomplete analysis or
      out-of-date information.
 •    There was no verification of guarantor or borrower liquid assets.
 •    Examples of financial statements that were unsigned, undated, and incomplete.
 •    No reconciling of inspection report items to draws.

 Table 4 shows the bank’s asset quality deterioration between 2003 and 2008. Loan
 classifications significantly increased, from $8.7 million in 2006 to over $54.5 million in
 2008 with corresponding significant increases in the ALLL. Examiners found that the
 bank’s methodology for determining the ALLL adequacy complied with regulatory and
 accounting guidance. However, the independent loan review performed in June 2008
 resulted in a dramatic increase in the ALLL from $4.5 million reported in the March 2008
 ROE to $14.6 million as of June 30, 2008, according to Heritage’s Call Report.
Table 4: Heritage Loan Classifications and ALLL
                                                       Asset Quality
                                                  (Dollars in Thousands)
                                  Loan Classifications                      Analysis of ALLL
                                                                                         Increase In
                                                            Total         ALLL             ALLL
                                                          Classified   Computed by      Required by
  Examination       Substandard    Doubtful     Loss        Items        Heritage        Examiners
      Date
 January 03             $2,787         0         0          $2,787         $1,722            0
 July 04               $3,876          0         0         $3,876          $1,837            0
 September 05           $3,157         0         0         $3,157          $2,290            0
 August 06             $8,640          0        $13        $8,653          $2,566            0
 March 08              $52,316         0       $2,200      $54,516         $4,456            0
Source: ROEs for Heritage.


 Watch List. FDIC examiners first recommended that Heritage establish a formal watch
 list in their January 2003 examination. The July 2004 IDFPR examination stated that
 Heritage had developed a watch list as recommended in the prior examination; moreover,
 the ROE stated that classified loans were included on the list and assigned ratings
 consistent with ratings stipulated in Heritage’s loan policy. The topic was not mentioned
 again in the ROEs until the March 2008 examination. The 2008 ROE noted that a large
 segment of the loan portfolio and correspondingly a large volume of the watch and
 impaired loans were comprised of construction loans and condominium conversion loans.
 Accordingly, examiners suggested that these loans should be grouped together on the
 report with sufficient commentary regarding the risks particular to the type of loan.
 Examiners also recommended specific factors to be summarized for any construction
 loan on the watch list such as:

 •    Estimated completion costs in relation to remaining funding availability.
 •    A recap of the interest reserve position.
 •    Sales activity with comparisons to original projections.
 •    Borrower/guarantor support capacity.
                                                   11
     Performance Incentives. The 2003 ROE expressed concern regarding the bank’s
     performance incentives. Specifically, the ROE stated that a loan officer could originate
     poor quality loans, collect the incentive award, and leave the bank before or after losses
     were incurred. Examinations completed in July 2004, September 2005, and August 2006
     did not mention any concerns with Heritage’s incentive compensation structure. The
     2008 examination did, however. The March 2008 examination stated that two bank
     officials were responsible for originating approximately 90 percent of all commercial
     credits and that one of the officials had originated the vast majority of loans adversely
     classified at $52,687,000 or 97 percent of total classifications. That official was paid
     $737,000 in related incentive awards over a 5-year period.

     Dual Role of the President. The 2008 examiners also took exception to the dual roles
     performed by the President and attributed, to him directly, the lax oversight of the
     excessive concentrations in the CRE portfolio. The examination performed in 2006 did
     not mention any concern with the dual role of the President nor question the President’s
     ability to execute his responsibilities. According to DSC officials, during the period 2004
     through 2006, he was being groomed directly by the bank’s Chairman to eventually
     assume full responsibilities of bank president.

     Interest Reserves. FDIC examiners identified the inappropriate use of interest reserves
     that may have masked additional loan delinquencies in the 2008 examination. Examiners
     encouraged Heritage’s management to gain a more comprehensive understanding of
     interest reserves. Examiners warned that the volume of loans where extensions of credit
     had been financed with additional interest reserves could present a substantial risk to
     capital and overstatement of earnings and that reasons for extending multiple interest
     reserves on individual projects should be well documented and approved. Examples of
     large loans with replenished reserves and subsequently adversely classified are illustrated
     in Table 5 that follows:

Table 5: Interest Reserves Paid and Replenished on Substandard Loans
 Loan Amount    Reserves   Replenished      FDIC Examiner              External                 External
  At March       Paid in     in 2007          Loan Review            Loan Review        Loan Review Performed
     2008         2007                   Performed March 2008   Performed April 2008           June 2008
  $2,229,000    $104,000    $100,000     Substandard /Loss of   Loan not Included in   Loan not Included in
                                         $200M                  Sample                 Sample
  $5,640,447    $165,000    $250,000     Substandard            Substandard            Substandard $3,000M /
                                                                                       Doubtful $2,640M
  $2,925,000    $294,000    $200,000     Substandard            Substandard            Doubtful
  $4,110,740    $225,000    $173,000     Substandard            Loan not Included in   Doubtful
                                                                Sample
  $5,004,434    $360,000    $271,000     Substandard            Loan not Included in   Substandard $3,504M /
                                                                Sample                 Doubtful $1,5000M
     Source: DSC ROE work papers.




                                                       12
Examiners suggested that Heritage’s management

•   establish maximum exposure limits for the use of interest reserves and enhance the
    bank’s monitoring system to track the total volume of interest reserves utilized within
    a project, especially the part that may, in limited instances, need to be capitalized;
•   document reasons and approvals for extending multiple interest reserves on projects;
•   consider and document loan rating adjustments and watch list inclusions; and
•   provide performance trends for management and the BOD to monitor.

In addition, examiners pointed out that Heritage’s management did not provide specific
dollar amounts of interest reserves with quantitative support for the calculation of
reserves on construction projects.

Weaknesses in Offsite Monitoring. Based on the IDFPR’s August 2006 examination,
Heritage met the criteria under section 10(d) of the FDI Act that allowed for annual
examination intervals to be extended to 18 months if the insured institution had assets
totaling less than $500 million and was well managed and well capitalized. The
information obtained through the use of offsite monitoring techniques during the 18-
month interval that followed provided the examiners with limited insight regarding
Heritage’s condition. Moreover, the information gathered during this period did not
prompt the FDIC to take additional supervisory action or alter the on-site examination
schedule. It was not until Heritage appeared on the Offsite Review List (ORL) shortly
before the onsite review was to begin in March 2008 that examiners became aware of the
probability that Heritage would be downgraded.

FDIC examiners stated that the 18-month interval between examinations was too long a
period for Heritage without an onsite examination, especially during the downturn in the
economy in the Chicago region. Examiners suggested that if an onsite examination had
taken place at the 12-month mark, examiner recommendations and management’s
implementation of those recommendations may have mitigated the bank’s losses.

The FDIC’s offsite monitoring process is designed to alert examiners to changes within
an institution and monitor activity between examinations. The FDIC implemented three
offsite monitoring procedures during the 18-month interval, including:

    Interim Bank Contact - April 2007. An FDIC examiner conducted a telephone
    interview with Heritage’s President to determine if any significant changes were
    taking place at Heritage. Heritage’s President brought two issues to the examiners
    attention:

    •   Holding Company Debt. The offsite monitoring interview revealed that
        Heritage’s HC, Heritage Community Bancorporation, Inc., had taken on debt for
        the first time. The examiners asked the President whether the bank had entered
        into any new type of business or offered any new products or made any
        significant changes to its business plan. Heritage’s President stated that the
        holding company had a $4 million line of credit and used $3 million to purchase
                                            13
    stock from a shareholder that owned 10 percent and added that there were no
    plans to re-issue the stock. This was significant because it represented a change at
    the holding company level that could place pressure on the bank to pay additional
    dividends to service the holding company debt.

•   Increase in Non-Current Loans. The examiner asked whether there were any
    trends in key UBPR ratios that warranted concern. The President confirmed that
    there had been a higher than normal level of nonperforming loans. Specifically,
    the level of non-current loans as a percentage of total loans had increased to 4
    percent in March 2007 from 3.24 percent in December 2006. However, the
    President stated that the bulk of the loan issues were based on personality
    conflicts rather than any change in market conditions or in the local economy.
    Nevertheless, the bank had allocated additional personnel to diligently monitor
    these loans and pursue legal action when necessary. We found no evidence of
    follow-up by the examiners on the President’s statement. Figure 3 illustrates the
    subsequent growth of non-current loans.

                           Figure 3: Heritage’s Non-Current Loan Percentage

                                      Heritage's Non-Current Loan Percentage

                           16.00%
                           14.00%
                           12.00%                                                          13.72%
             Percentages




                           10.00%
                           8.00%
                           6.00%
                                                  4%         3.15%   4.38%       6.07%
                           4.00%
                           2.00%
                                       3.24%
                           0.00%
                                        12/06
                                         1       3/07
                                                   2         6/07
                                                               3     9/07
                                                                       4       12/07
                                                                                5          3/08
                                                                                           6

                                    Date Quarterly From December 2006 through March 2008

                           Source: Quarterly UBPRs from December 2006 through March 2008.

Targeted Emerging Risk Contact - June 2007. Examiners contacted Heritage
because Heritage had 100 percent or more of capital exposed on construction and
development lending. To that end, an examiner asked Heritage’s President to
describe the 1-4 family residential construction activity in the bank’s market. In
response, the President stated that the 1-4 family residential construction activity in
the bank’s market area slowed down, but was better than the long-term national
average. Further, the examiner asked whether the President was aware of any
builders encountering significant financial problems and the President’s response was
“no.” We found no evidence of follow-up on the President’s statement; however, as
indicated in Figure 3, the non-current loan percentage decreased from March 2007 to
June 2007.
                                                        14
        Analysis of Offsite Review List (ORL) – March 2008. The FDIC has developed
        various offsite tools, including the ORL, to monitor insured institutions between
        examinations. One of the measures used to produce the ORL is the Statistical
        CAMELS Offsite Rating (SCOR) model, which uses statistical techniques to measure
        the likelihood that an institution will receive a rating downgrade at the next
        examination. The output of the SCOR model is derived from historical examination
        results as well as from Call Reports. 9 Heritage was included on the ORL based on
        December 31, 2007 Call Report Data (meaning the offsite analysis took place during
        the first quarter 2008). SCOR indicated a probability of downgrade for asset quality
        of 91 percent, management of 58 percent, earnings of 28 percent, and composite of 53
        percent. The offsite analysis alerted the FDIC to Heritage’s potential condition, but
        that insight was only gained shortly before the onsite review was scheduled to begin
        in March 2008. 10


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory supervisory actions that are to be triggered by an institution’s capital levels.
    Part 325 of the FDIC’s Rules and Regulations implements PCA requirements by
    establishing a framework for taking prompt corrective action against insured nonmember
    banks that are not adequately capitalized.

    The FDIC and IDFPR evaluated Heritage’s capital position, assigned capital component
    ratings, included capital-related provisions in a formal enforcement action, and provided
    PCA notification letters. The FDIC’s March 2008 examination concluded that the
    substantial decline in earnings had eroded capital to a critically deficient level and
    assigned a 5 to the capital component. On August 5, 2008, the FDIC informed the bank
    that, based on capital ratios reported in the June 30, 2008 Call Report, the institution was
    undercapitalized and was required to submit a capital restoration plan.

    Further, on October 10, 2008, the FDIC and IDFPR issued a C&D that required Heritage
    to achieve and maintain a Tier 1 Capital ratio of no less than 9 percent and a Total Risk-
    Based Capital ratio of no less than 14 percent. Further, the C&D included requirements
    9
      According to the Case Manager Procedures Manual, “[E]ach institution on the ORL must have an Offsite
    Review to determine whether supervisory attention is warranted before the next regularly scheduled
    examination or a rating change should be initiated, if the review indicates that the institution poses a greater
    risk to the insurance fund than indicated by the composite rating. The manual also states that offsite
    reviews must be completed and approved within 3½ months after each Call Report date.
    10
       As discussed in a recent FDIC OIG report, offsite monitoring systems used to create the ORL are largely
    based on historical financial information, provided by the financial institution, that may not be accurate and
    may not fully consider current and emerging risks. As a result, the FDIC’s offsite monitoring systems may
    not be capturing a complete picture of the current and emerging risks facing 1- and 2-rated institutions or
    identifying those institutions at risk of significant ratings downgrades [OIG Report No. AUD-09-004,
    FDIC’s Controls Related to the Offsite Review List dated February 2009].

                                                          15
    regarding the reduction of substandard assets and delinquencies; charge-off of losses;
    concentration and LTV exception reductions; implementation of a comprehensive loan
    grading and review system; evaluation of staffing including qualified management; asset
    and liability contingency planning; dividend restrictions; Board loan approvals; and
    expansion of the loan policy.

    In response, Heritage submitted a capital restoration plan on September 18, 2008. The
    plan was later updated on December 31, 2008. The plan proposed pursuing an equity
    investment from strategic investors to raise approximately $20 million in order to meet
    the capital requirements under the C&D. However, the bank was unsuccessful in raising
    the additional capital. On February 19, 2009, the FDIC notified Heritage that based on
    capital calculations provided by the institution, Heritage was considered to be critically
    undercapitalized for PCA purposes. Heritage failed on February 27, 2009, shortly after
    this notification.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s
    financial health. Heritage’s capital remained in the well capitalized range long after its
    operations had begun to deteriorate because of problems related to management, asset
    quality, risk management controls, and net losses. Further, by the time Heritage’s capital
    levels fell below the required thresholds necessary to implement PCA, the bank’s
    condition had deteriorated to the point at which the institution could not raise additional
    needed capital.

CORPORATION COMMENTS

    After we issued our draft report, we met with management officials to further discuss our
    results. Management provided additional information for our consideration, and we
    revised our report to reflect this information, as appropriate. On September 16, 2009, the
    Director, Division of Supervision and Consumer Protection (DSC), provided a written
    response to the draft report. That response is provided in its entirety as Appendix 3 of
    this report.

    DSC reiterated the OIG’s conclusions regarding the cause of Heritage’s failure. With
    regard to our assessment of the FDIC’s supervision of Heritage, DSC’s response stated
    that it uses various tools to monitor institutions between examinations and the offsite
    monitoring process was integral to the supervisory process in this case. DSC stated that
    one of its offsite models accurately predicted Heritage’s future downgrade during the first
    quarter of 2008. Further DSC stated that information discovered through offsite
    monitoring merited a Prompt Corrective Action Plan in December 2008 and notification
    to Heritage that it was critically undercapitalized in February 2009. We agree that offsite
    monitoring is an integral part of the supervisory process, and did occur in the case of
    Heritage. However, as we discuss in the report, in hindsight, offsite monitoring between
    2006 and 2008 did not prompt closer on-site supervisory review that may have provided
    more timely insight into Heritage’s condition and enabled the FDIC to more effectively
    mitigate losses.

                                                16
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, the Inspector General of the appropriate federal banking agency
      shall prepare a report to that agency reviewing the agency’s supervision of the institution.
      The FDI Act requires that the report be completed within 6 months after it becomes
      apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted this performance audit from March to July 2009 in accordance with
      generally accepted government auditing standards. Those standards require that we plan
      and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
      basis for our findings and conclusions based on our audit objectives. We believe that the
      evidence obtained provides a reasonable basis for our findings and conclusions based on
      our audit objectives.


Scope and Methodology

      The scope of this audit included an analysis of Heritage’s operations from January 6,
      2003 until its failure on February 27, 2009. Our review also entailed an evaluation of the
      regulatory supervision of the institution from 2003 to 2009.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and IDFPR
                 from 2003 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s Chicago Regional and
                       Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Records of the bank’s external auditor.




                                                      17
                                                                                      APPENDIX 1


                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in Downers Grove, Illinois.

                 •   DSC examiners in the Chicago Field and Regional Offices who participated
                     in the Heritage examination.

           •   Met with officials from the IDFPR to discuss their historical perspective of the
               institution, its examinations, state banking laws, and other activities regarding the
               state supervision of the bank.

           •   We performed the audit field work at the DSC offices in Chicago and Downers
               Grove, Illinois.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

      Consistent with the audit objectives, we did not assess DSC’s overall internal control or
      management control structure. We relied on information in DSC systems, reports, ROEs,
      and interviews of examiners to understand Heritage’s management controls pertaining to
      causes of failure and material loss as discussed in the body of this report.

      We obtained data from various FDIC systems but determined that information system
      controls were not significant to the audit objectives, and therefore, did not evaluate the
      effectiveness of information system controls. We relied on our analysis of information
      from various sources, including ROEs, correspondence files, and testimonial evidence to
      corroborate data obtained from systems that were used to support our audit conclusions.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not relevant to the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine
      compliance with certain aspects of the FDI Act. The results of our tests were discussed,
      where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
      related to our objectives in the course of evaluating audit evidence.



                                                    18
                                                                                   APPENDIX 2
                                GLOSSARY OF TERMS

      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice or a
                    violation of laws and regulations. A C&D may be terminated when the bank’s
                    condition has significantly improved and the action is no longer needed or the
                    bank has materially complied with its terms.

Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325 of the
(PCA)               FDIC Rules and Regulations, 12 Code of Federal Regulations, section 325.101,
                    et. seq., implements section 38, Prompt Corrective Action, of the FDI Act, 12
                    United States Code section 1831o, by establishing a framework for taking
                    prompt supervisory actions against insured nonmember banks that are less than
                    adequately capitalized. The following terms are used to describe capital
                    adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)       report is produced by the Federal Financial Institutions Examination Council
                    for the use of banking supervisors, bankers, and the general public and is
                    produced quarterly from Call Report data submitted by banks.




                                               19
                                                                                               APPENDIX 3
                          CORPORATION COMMENTS




FDIC
Federal De Insurance Corpration
550 17m S~ee! Wi. Wasai 0 C 2029.99                               DiYl~n ci So"is an ~ Pr10"
                                                                 September 16. 2009

MEMORANDl:M TO:                   Stephen Beard
                                  Assistant Insptor General for Material Loss Reviews


FRO\1:                            Sandra L. Thompsn
                                  Director

SUBJECT:                          Dratì Audit Report Entitled, \1atcrial Loss Review of Hcritage
                                  Community Bank. Glenwood. Ilinois (Assignment No. 2009-028)


Pursuant   to Section 38(k) of the Federal Desit Insurane Act (FDI Act). the Federal Depsit
Insurace Corpration's Offce of Inspetor Gencral (OIG) conducted a Material Los.~ Review of
Heritage Community Bank (HCB). Glenwoo, Ilinois, which failed on Februy 27, 2009. The
Division of Supervision and Consumer Protection (DSCl received the OIG's Draft Audit Report
(Repon) on September I. 200, providing infonnation on the cause of fai lure an an assessment
of the FDles supervision of HCB.

 The Report notes HCB failed due the Board ofDirectors and management not adequately
 managing the risks associated with HCB's commercial real estate (eRE) concentrations.
 Weaknesses assoiated with HCB's loan undernTÍting and credit administration, in combination
 with the downwar economic cycle, contributed to the significant and rapid deterioration in ast
 quality resulting in the depletion of capitaL. HCB ultimately closed due 10 its inability to raise
 capital to onset the significant loan losse.

 The Report Iìnds thai DSC and the Illinois Deparment of Financial Professional Regulation
 (IDFPRì conducted ongoing supervisory oversight with examinations in 2003. 2004, 2005. 2006.
 and 2008. and interim off-site monitoring in 2007. Although the Report notes that Eoie and
 IDFPR made recommendations to improve CRE concentrations in the 2003, 200. and 200
 examinations. regulators generally concluded that HCB's ov'cralllìnancial condition was sound
 and additional risk was adequately managed, During the first quarter ot2008. the Statistical
 CAMELS Offsite Rating (SCOR) model accurately predicted HCB's future downgrade. and the
 institution was placed on the Offsite Review List. lieB was placed under a Ceas and Desist
 Order in Octoher 20011


 As part of our supervisory program. USC uss varous oflsite tools, including personal contacts
 with hank management. to monitor institutions bet..een examinations. Information discovered
 through olTsite monitoring merited a revised Prompt Correcti\'e Action Plan in Dccember 2008
 and a notification to HCB that it was critically undercapitalized in Fehruary 2009. DSCs off-
 site monitoring process was integral to thc supervisory tunction. in this case since the hank failed
 shortly after the Fehruary 2009 notilication.

  lhank you for the opportunity to review and comment on the Report.




                                                  20
                                                              APPENDIX 4
                ACRONYMS IN THE REPORT



Acronym   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BOD       Board of Directors
C&D       Cease and Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FDIC      Federal Deposit Insurance Corporation
IDFPR     Illinois Department of Financial Professional Regulation
LTV       Loan-to-value
OIG       Office of Inspector General
ORL       Offsite Review List
PCA       Prompt Corrective Action
ROE       Report of Examination
SCOR      Statistical CAMELS Offsite Rating
SVP       Senior Vice President
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                21
